          OFFICE OF
   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


      BEST PRACTICES IN THE
       HIGHEST PRODUCING
        HEARING OFFICES

   August 2004    A-12-04-14020




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY

MEMORANDUM

Date:   August 31, 2004                                                                    Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Best Practices in the Highest Producing Hearing Offices (A-12-04-14020)



        OBJECTIVE
        Our objective was to identify potential factors and practices at hearing offices that result
        in differing levels of performance in the areas of productivity and timeliness.

        BACKGROUND

        The Office of Hearings and Appeals (OHA) makes decisions on appealed
        determinations involving retirement, survivors, disability, and supplemental security
        income. The hearing organization consists of ten regional offices (RO) and 140 hearing
        offices. Within OHA, the Office of the Chief Administrative Law Judge (OCALJ)
        administers the nationwide hearings organization. OHA is one of the largest
        administrative adjudicative systems in the world with approximately 1,000 Administrative
        Law Judges (ALJ).

        According to OHA executives, dispositions1 per day per ALJ and hearing office
        processing time2 are OHA’s key criteria for analyzing hearing office productivity. Since
        Fiscal Year (FY) 2001, OHA has increased its disposition rate (see Table 1). However,
        receipts have outpaced dispositions in all 3 FYs. When receipts outpace dispositions,
        the number of pending claims increase, and it takes longer on average to process a
        claim. Average processing time was 308 days in FY 2001 and 344 days in FY 2003.
        This review focused on the best practices for increasing dispositions and meeting the
        average processing time goal. Total dispositions and average processing time are

        1
         Dispositions are defined as the number of hearing requests processed, including favorable and
        unfavorable decisions issued, as well as requests that are dismissed. See Appendix B for further
        background on dispositions in hearing offices.
        2
          Processing time is defined as the average elapsed time, from the hearing request date until the date of
        the notice of the decision, of all hearings level cases processed during all months of the fiscal year. See
        Appendix B for further discussion on average processing time in hearing offices.
Page 2 - The Commissioner

reported yearly in the Social Security Administration’s (SSA) Annual Performance and
Accountability Report.3

                                Table 1: Hearing Office Key Indicators1
                                             OHA Nationwide                    OHA Nationwide
     Fiscal     Total             Total        Dispositions        Total           Average
     Year      Receipts        Disposition   per Day per ALJ      Pending      Processing Time
                                   s
     2001      554,376           465,228          2.02           435,904           308 days
     2002      596,959           532,106          2.20           500,757           336 days
     2003      662,733           571,928          2.35           591,562           344 days
Note 1: The table includes Medicare cases.


To understand how best practices are being used in the hearing offices, we contacted
12 of OHA’s highest producing hearing offices in both dispositions per day per ALJ and
processing time. We did not assess internal controls or the impact that best practices
had on hearing office effectiveness. Our scope and methodology is detailed in
Appendix C. We conducted our audit from August 2003 to April 2004 in accordance
with generally accepted government auditing standards.

RESULTS OF REVIEW

OHA has released numerous best practice ideas to hearings offices over the years to
improve their disposition rates and timeliness. Recent best practice releases have been
less useful due to (1) a lack of focus, (2) inability to determine the effectiveness of the
best practices in recent memoranda, and (3) conflicting messages. We asked 12 of
OHA’s highest producing hearing offices, which best practices listed in an earlier OHA
memorandum were being used. We discovered that the 12 selected hearing offices use
3 best practices for increasing dispositions and 5 best practices for meeting the average
processing time goal.

ISSUANCE OF BEST PRACTICES

OHA has major challenges dealing with an increasing workload. In June 2002, OHA
management initiated a process to identify best practices to increase dispositions and
meet processing time goals. However, recent efforts at collecting and disseminating the
best practices could have provided more meaningful guidance to the hearing offices had
the best practices been better focused and more descriptive on how to implement the
best practices.




3
    See Appendix B for further discussion on SSA’s hearing office performance indicators.
Page 3 - The Commissioner

Lack of Focus in Recent Memoranda

Numerous best practices in the recent memoranda sent by OHA’s Office of Associate
Commissioner to OHA’s field management team4 made it difficult to distinguish which
best practices were most useful. OHA management issued the following memoranda:

      •   June 25, 2002 memorandum contained 191 best practices;
      •   April 11, 2003 memorandum contained 271 best practices; and
      •   April 28, 2003 memorandum contained 49 “best of the best” practices.

The best practices were described as a variety of management tools, creative ways to
use reports, and management information and communication strategies. The field
management team was instructed to review the list and take advantage of any of the
good ideas that have worked successfully in the hearing offices.

In contrast, prior to distributing these three memoranda, OHA had disseminated 24 best
practice ideas through its earlier Practice and Procedures Exchange (from now on
referred to as Exchange).5 The Exchange’s mission was to obtain innovative ideas and
work processes developed by hearing offices, and disseminate the best ideas to help
the hearing offices perform more efficiently and effectively. A 1999 Office of the
Inspector General report6 found that three-fourths of the hearing offices gave the
Exchange a favorable rating, and most hearing offices reported that best practice
releases were useful.

In Table 2 we compare the Exchange best practice releases with the recent best
practice memoranda. The Exchange distributed the best practices throughout OHA
initially by paper, and then via the Intranet, while the memoranda’s distribution was
restricted. Also, the Exchange focused on a fewer number of best practices spread out
over a number of years. In contrast, the memoranda covered a large number of best
practices over a very short time period. Finally, the Exchange provided instructions for
implementing the best practice along with guides to help the user implement the idea.
There were no instructions and no guides provided in the memoranda.




4
 Regional Chief Administrative Law Judges (RCALJ), Regional Management Officers (RMO), Hearing
Office Chief Administrative Law Judges (HOCALJ) and Hearing Office Directors (HOD).
5
    The Exchange was initiated in 1993.
6
 SSA OIG, Implementation of Best Practices in the Office of Hearings and Appeals Operations
(A-06-97-21007), August 1999.
Page 4 - The Commissioner


                    Table 2: Comparison of the Earlier Exchange with
                             Later Best Practices Memoranda
                                                                              Total Number of Best
           Best Practice                                                             Practice
           Dissemination                       Distribution List                  Suggestions

    Exchange                                      All of OHA                            24

    June 25, 2002 Memorandum              Field Management Team                         191

    April 11, 2003 Memorandum             Field Management Team                         271

    April 28, 2003 Memorandum         Regional Management Team                          49

Inability to Determine Effectiveness of Best Practices in Recent Memoranda

OCALJ asked the regional offices and hearing offices to submit their best practices, and
then OCALJ compiled a best practice list that was included as an attachment to the
April 11, 2003, memorandum. The best practices were placed into one column in a
table and the entity that submitted the best practice was listed in another column next to
the best practice. Most of the best practices were shown as being submitted by
regional offices. However, while 27 hearing offices were listed as providing best
practices for increasing dispositions, 12 of the 27 hearing offices had disposition rates
below OHA’s FY 2002 national disposition rate of 2.20 dispositions per day per ALJ.

Furthermore, 23 hearing offices were listed as providing best practices for meeting the
processing time goal, while 7 of the 23 hearing offices had average processing times
above OHA’s FY 2002 national average processing time of 336 days. One hearing
office had an average processing time that was 93 days above the national average.

OHA stated that the best practices highlighted in the memorandum have been proven
successful in meeting hearing office goals, but the data shows that some hearing offices
who submitted the best practices are not meeting goals. Also, OHA can not determine
the source of most of the best practice submissions and can not validate how the use of
the best practice benefited the hearing office’s operation. Therefore, OHA can not
determine if the best practices are likely to be effective in increasing dispositions or
helping the hearing office meet the processing time goal.7




7
 We acknowledge that a lower producing hearing office might have a useful best practice idea, while
other challenges, such as loss of staff, implementation of a new computer system or a new initiative,
might be contributing to production issues in the hearing office.
Page 5 - The Commissioner

Conflicting Messages to Management

Unlike OHA’s Short-Term Initiatives (STI) that were approved by SSA’s Commissioner,8
the best practices are not mandatory. Our review of the April 11, 2003, list of 271 best
practices indicated that many best practice suggestions gave conflicting messages.
These voluntary best practices are very similar to the mandatory STIs. As a result,
hearing offices may not know which of these best practices are mandatory and which
are voluntary (see Table 3).

     Table 3: Comparison of 2003 Best Practices with 2002 Short-Term Initiatives
           Best Practices (Voluntary)                                Short-Term Initiative (Mandatory)
    Diligent Screening of Master Docket 1                     Early Case Screening and Analysis by
    Hearing offices screen cases to identify                  Administrative Law Judge
    dismissals, On-the-Record2 (OTR) and                      In early case screening, ALJs examine
    Medicare Cases to “fast-track” to                         unassembled cases from Master Docket and
    dispositions.                                             may issue immediate OTR favorable decisions.
    ALJs Make Immediate Decision After                        Bench Decision
    Hearing                                                   An ALJ issues a decision as soon as the
    ALJs make immediate decisions after the                   hearing is over.
    hearing when possible to reduce case
    handling time.
    Use Short-Form Format for Favorable                       Short Form Software for Fully Favorable
    Decisions3                                                Decisions
    ALJs use software that was developed to                   ALJs use software that was developed to
    create fully favorable decisions.                         create fully favorable decisions.
    Use Contract File Assembly Units                          Contract File Assembly
                                                              Contractors assemble case folders to assist
                                                              hearing offices in preparing backlogged cases.
    Use Video Teleconference Equipment                        Expanded Video Teleconferencing Hearings
                                                              Enhances OHA’s ability to schedule hearings
                                                              expeditiously in remote4 locations.
    Encourage Writing Staff to Become                         Dragon Naturally Speaking, Speech
    Proficient with Voice Recognition                         Recognition Software
    Software                                                  Assist ALJs and support staff with drafting
                                                              decisions.
Note 1: Hearing offices maintain a Master Docket system, which contains all requests for hearings and remanded claims.
        There were 12 best practices in the April 11, 2003 memorandum related to screening cases.
Note 2: OTR decisions are used when the ALJ reviews a claim prior to a hearing and decides that there is enough evidence to
         render a favorable decision. Claims decided OTR eliminate the standard delays associated with holding a hearing.
Note 3: There were three best practices in the April 11, 2003 memorandum for using the Short-Form Format.
Note 4: Remote sites are locations where hearings are held, other than the main hearing office. For instance, ALJs in the
        Charlottesville, Virginia hearing office use the video teleconference to hear cases from the Lewisburg, West Virginia
        remote site.


HEARING OFFICE PRACTICES

We interviewed the hearing office leaders in 12 of OHA’s highest producing hearing
offices. While the 12 HOCALJs and 12 HODs had received the 3 best practices
memoranda, none had measured the impact on hearing office dispositions or timeliness
8
    See Appendix E for a brief discussion on OHA’s Short-Term Initiatives.
Page 6 - The Commissioner

by use of any best practice. As a result, we were unable to assess the potential
benefits related to each practice. Nonetheless, we did obtain from each hearing office a
list of best practices which they believe assisted them in meeting their disposition and
timeliness goals. We list those best practices below.9

Hearing Office Best Practices to Increase Dispositions

From OHA’s June 2002 list of 55 best practices for increasing dispositions, the following
3 best practices are being used at all 12 hearing offices.

Daily Assignment of Work

The hearing office managers10 Assign Work Daily to the hearing office support staff.
The hearing office manager’s main duty is to administer the workload by supervising,
planning, organizing, directing and controlling operating activities. For example, in the
Jericho, New York hearing office, the hearing office managers assign 2 to 3 cases daily
to each Decision Writer for completion.

Management Review of Hearing Schedules

At the 12 hearing offices we reviewed, Managers Review Hearing Schedules to ensure
that every ALJ’s requested case needs are met. For instance, in the Fort Smith,
Arkansas hearing office, the HOD checks the Hearing Office Tracking System (HOTS)
report daily to monitor the movement of claims. The Los Angeles, (Down Town)
California hearing office assigned two case technicians primarily to prepare cases for
hearings.

Share Hearing Office Progress Daily/Weekly

Daily/Weekly Sharing of Hearing Office Progress is a common trait. Hearing office
managers share information on hearing office goals with their staff. As an example, in
the Johnstown, Pennsylvania hearing office the HOCALJ ensures that all of the hearing
office staff are well-versed on national, regional and hearing office goals. In the Dallas
(Down Town), Texas hearing office, the HOD uses a team approach, making sure
everyone has access to all of the information that is required to do their job.




9
 See Appendix F for a list of other best practices used by 12 of OHA’s highest producing hearing offices.
See Appendix G for a comparison of the best practices used in all 12 of OHA’s highest producing hearing
offices versus those highlighted in OHA’s April 28, 2003 “best of the best” practices memorandum.
10
     HODs and Group Supervisors (GS).
Page 7 - The Commissioner

Best Practices to Improve Timeliness

From OHA’s June 2002 list of 41 best practices for meeting processing time goals, the
following 5 best practices are being used at our selected 12 hearing offices.

Oldest Cases Pulled First

Pulling the Oldest Cases First11 is a priority at all 12 hearing offices. We realize that
processing the oldest cases is time consuming, and takes resources away from meeting
disposition goals; however, as mentioned in our recent report on OHA’s Appeals
Council,12 processing the oldest cases first should be a priority since it serves the
claimants who have been waiting the longest.13 For example, the Portland, Maine
hearing office implemented this best practice by assigning a Lead Case Technician
(LCT) the responsibility for prioritizing all cases older than 300 days.

Finalize and Mail Cases Throughout the Month

OHA’s current business process requires hearing offices to download their HOTS
databases,14 containing all of their dispositions for the month, into a centralized
database during the last week of each month. The 12 hearing offices we reviewed
follow this procedure. However, all 12 hearing offices also use the best practice of
Finalizing and Mailing Cases Throughout the Month. In these 12 hearing offices, as
decisions are written and signed off by the ALJ, the claim is closed out and mailed
immediately which helps reduce processing time.

As of July 31, 2004, the HOTS databases were replaced by OHA’s new Case
Processing and Management System (CPMS). The decision’s status is now entered
into CPMS as soon as it is completed. Hearing offices will continue to finalize and mail
completed cases throughout the month.

Use Specialized Staff to Process Medicare Cases

Using Specialized Staff to Process Medicare Cases is a best practice performed at our
selected 12 hearing offices. For example, at the Johnstown, Pennsylvania hearing




11
   Pulling is the term hearing offices use when organizing all of the documentation in a claim’s folder prior
to holding a hearing before an ALJ.
12
     SSA OIG, Appeals Council Process Improvement Action Plan (A-12-02-12015), January 2004.
13
  In our discussion with OHA management we were told that there are exceptions when other cases are
prioritized. For instance, Terminally Ill, Dire Need, Critical and Congressional Interest cases, as well as
Appeals Council and Court Remands, can be pulled before aged cases.
14
     Each hearing office maintains its own HOTS database.
Page 8 - The Commissioner

office, we learned that Medicare cases are assigned to LCTs only, because they require
more experienced staff to prepare them for a hearing.15

SSA and the Department of Health and Human Services have agreed on a plan for the
phased transfer of the Medicare hearings function. Therefore, this best practice will be
unnecessary after SSA completes processing of its pending Medicare workload
scheduled to be completed by September 30, 2005.

Give Employees Continuous Feedback

Hearing office managers in all 12 hearing offices use the best practice of Providing
Continuous Feedback to Employees. For instance, in the Morgantown, West Virginia
hearing office, the managers meet individually with staff to improve performance. In the
Minneapolis, Minnesota, Paducah, Kentucky, and Kingsport, Tennessee hearing offices,
a HOTS report is given to every employee each day. The HOTS report allows every
employee to see how many cases they are working on, and how long they have been
working on a case. Employees can track their productivity over time. In the Metairie,
Louisiana hearing office, there is a policy of open communication where management is
willing to assist staff with any of the duties they perform.

Daily Management Monitoring of Workflow

Daily Management Monitoring of Workflow is a best practice used by hearing office
managers in the selected hearing offices. For example, the workload in the Atlanta
(North), Georgia hearing office is divided among three groups. If work becomes backed
up in one group, it is shifted to another group.

CONCLUSION AND RECOMMENDATIONS
We commend OHA for examining best practices as another tool to help them increase
dispositions and meet their processing time goal. However, OHA would benefit from a
more focused approach like its Practice and Procedures Exchange. We identified 3
best practices for increasing dispositions and 5 best practices for meeting the
processing time goal that are being used at 12 of OHA’s highest producing hearing
offices we selected.




15
  OHA management noted that having specially trained staff might work well in larger hearing offices.
However, many of its smaller hearing offices do not have the staff or the workload to justify this kind of
specialty.
Page 9 - The Commissioner

We recommend SSA:

   1. Consider developing a process similar to the earlier Practice and Procedures
      Exchange model in future development and releases of best practice ideas to the
      regional offices and hearing offices.

   2. Share the eight best practices identified in our review with all hearing offices,
      thereby making them standard operating procedures, to increase dispositions
      and improve timeliness.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix I.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                        Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Highest Producing Hearing Offices Reviewed by the Social Security
             Administration’s Office of the Inspector General

APPENDIX E – Office of Hearings and Appeals Short-Term Initiatives

APPENDIX F – Best Practices Used at the Selected 12 Office of Hearings and Appeals
             Highest Producing Hearing Offices

APPENDIX G – Best Practices Used in All of the Selected 12 Office of Hearings and
             Appeals Hearing Offices versus Those Highlighted in Office of Hearings
             and Appeals’ April 28, 2003, “Best of the Best” Practices Memorandum

APPENDIX H – Prior Office of the Inspector General Reports Related to the Office of
             Hearings and Appeals Disability Process

APPENDIX I – Agency Comments

APPENDIX J – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
ALJ      Administrative Law Judge
AVID     ALJ Verification Input Database
CPMS     Case Processing and Management System
FY       Fiscal Year
GPRA     Government Performance and Results Act
GS       Group Supervisor
HOCALJ   Hearing Office Chief Administrative Law Judge
HOD      Hearing Office Director
HOTS     Hearing Office Tracking System
LCT      Lead Case Technician
OCALJ    Office of Chief Administrative Law Judge
OHA      Office of Hearings and Appeals
OIG      Office of the Inspector General
OTR      On-the-Record
RCALJ    Regional Chief Administrative Law Judge
RMO      Regional Management Officer
RO       Regional Office
STI      Short-Term Initiatives
SSA      Social Security Administration
                                                                                     Appendix B

Background
DISPOSITIONS
Since Fiscal Year (FY) 2001, the Office of Hearings and Appeals (OHA) has increased
its dispositions1 (see Table B-1). According to OHA executives, the OHA nationwide
disposition rate of 2.35 cases per day per Administrative Law Judge (ALJ) in FY 2003
was OHA’s highest rate ever. However, there has been a wide range in performance in
dispositions per day per ALJ in OHA’s hearing offices in all 3 years. For instance, in
FY 2003, one hearing office with the highest disposition rate processed
4.69 dispositions per day per ALJ, while another hearing office with the lowest
disposition rate processed only 1.18 dispositions per day per ALJ.

                     Table B-1: 3-Year Trend in Hearing Office Dispositions1
                                         OHA Nationwide                                  Lowest
     Fiscal          Total                 Dispositions       Highest Dispositions   Dispositions per
     Year         Dispositions           per Day per ALJ        per Day per ALJ       Day per ALJ
     2001           465,228                      2.02                4.32                  .83
     2002           532,106                      2.20                5.16                 1.05
     2003           571,928                      2.35                4.69                 1.18
    Note 1: The table includes Medicare cases.


PROCESSING TIME
OHA uses three criteria for determining its processing time goal: past performance
(including pending levels and age of pending), special initiatives (i.e. training) and a mix
of casework (including receipt levels). Receipts have been outpacing dispositions,
causing an increase in pending claims and average processing time2 (see Table B-2).
Average processing time was 308 days in FY 2001, and increased to 344 days in
FY 2003. There is a wide range of performance in timeliness among OHA’s hearing
offices. In FY 2003, the lowest average processing time in one hearing office was
142 days, while another hearing office had the highest average processing time of
525 days.




1
 Dispositions are defined as the number of hearing requests processed, including favorable and
unfavorable decisions issued, as well as requests that are dismissed.
2
  Processing time is defined as the average elapsed time, from the hearing request date until the date of
the notice of the decision, of all hearings level cases processed during all months of the fiscal year.


                                                        B-1
                                   Table B-2: 3-Year Trend in Timeliness1
                                                     National
     Fiscal       Total            Total             Average      Lowest Average     Highest Average
     Year        Receipts         Pending          Processing     Processing Time    Processing Time
                                  Claims           Time (Days)        (Days)             (Days)
      2001       554,376         435,904              308                176              455
      2002       596,959         500,757              336                188              523
      2003       662,733         591,562              344                142              525
      Note 1: The table includes Medicare cases.


PERFORMANCE MEASURE REPORTING

The Government Performance Results Act3 of 1993 established a framework through
which Federal agencies set goals, measure performance, and report on the extent to
which those goals were met. Agencies prepare 5-year strategic plans, annual
performance plans, and annual performance reports.4

Strategic Objective: Make the right decision in the disability process as early as
                     possible.

Output Measure:                  Table B-3: Number of Hearings Processed

                                             FY                  Goal      Actual
                                           2000              622,400      539,426
                                           2001              582,000      465,228
                                           2002              580,000      532,106
                                           2003              602,000      571,928
                                            FY              Projection     Actual
                                           2004              538,000*      -------
                                           2005              596,000*      -------
                                   *   These projections exclude Medicare cases.

Data Definition: The number of hearings processed. SSA plans to transfer the
                 Medicare hearings function to the Department of Health and
                 Human Services by the end of FY 2005.




3
    Public Law No. 103-62, § 4(b). 31 United States Code § 1115 (2002).
4
  For OIG’s analysis of SSA’s performance data and indicators, see our Summary of the Office of
Inspector General’s Review of the Social Security Administration’s Performance Data (A-02-03-13033),
September 2003.


                                                            B-2
Outcome Measure:      Table B-4: Average Processing Time for Hearings
                              FY            Goal        Actual
                             2000         268 days     297 days
                             2001         208 days     308 days
                             2002         259 days     336 days
                             2003         352 days     344 days
                             2004         377 days       -------
                             2005         344 days       -------

Data Definition: Beginning in FY 2000, this indicator was redefined to represent the
                 average elapsed time, from the hearing request date until the date of
                 the notice of the decision, of all hearings level cases processed
                 during all months of the FY.

Outcome Measure:      Table B-5: Number of Hearings Pending
                             FY             Goal        Actual
                            2000           209,000     346,756
                            2001            -------    435,904
                            2002            -------    500,757
                            2003           587,000     591,562
                            2004           586,000      -------
                            2005           550,000      -------

Data Definition: This indicator represents all hearings pending in the OHA through
                 FY 2003. Beginning in FY 2004, Medicare hearings were excluded
                 from the number of hearings pending: 57,000 Medicare hearings
                 were excluded from the number of hearings pending for FY 2004 and
                 58,000 excluded from the hearings pending for FY 2005.




                                          B-3
                                                                               Appendix C

Scope and Methodology
    •   Reviewed Office of Hearings and Appeals (OHA) policies and procedures.

    •   Reviewed Office of the Inspector General (OIG) and General Accountability
        Office (GAO) reports, OHA’s Quarterly Reports on the Social Security
        Administration’s (SSA) disability process, and other relevant documents.

    •   Reviewed OHA’s best practice memoranda of June 25, 2002, April 11, 2003, and
        April 28, 2003.

    •   Used OHA bi-weekly staffing reports to categorize hearing offices according to
        size; small hearing offices (less than seven Administrative Law Judges (ALJ)),
        medium hearing offices (seven or eight ALJs), and large hearing offices (more
        than eight ALJs).

    •   Obtained hearing office performance data from OHA’s National Ranking
        Reports.1 Created spreadsheets for ranking small, medium and large hearing
        offices in dispositions per day per ALJ and average processing time for Fiscal
        Years (FY) 2001, 2002, and 2003.

    •   Selected 4 hearing offices to visit and 8 hearing offices for phone interviews that
        were in the top 15 for both dispositions per day per ALJ and processing time in
        FYs 2001, 2002, or 2003, or hearing offices that have had recent considerable
        increased performance in either increasing their number of dispositions per day
        per ALJ or lowering their processing time. We selected four hearing offices to
        visit in four different regions (see Appendix D). The 8 hearing offices with which
        we conducted phone interviews are located in 6 of the 10 regions.

    •   Distributed questionnaires to 12 hearing offices to determine which best practices
        are being used.

    •   Conducted interviews with OHA headquarter staff, regional office management
        staff and hearing office staff at 12 hearing offices.




1
 OHA’s National Ranking Reports contain monthly and yearly hearing-level performance data for every
hearing office. We did not independently audit the performance data found in the National Ranking
Reports.
                                                                                   Appendix D

Highest Producing Hearing Offices Reviewed by the
Social Security Administration’s Office of the
Inspector General

We chose 12 hearing offices from among the top 15 hearing offices in terms of
dispositions per day per Administrative Law Judge (ALJ) and processing time in Fiscal
Years 2001, 2002, or 2003, or they had recent considerable increased performance in
either increasing their number of dispositions per day per ALJ or lowering their
processing time. Tables D-1 through D-3 display the hearing offices we reviewed and
their associated regional offices.

                 Table D-1: Small Hearing Offices (less than 7 ALJs )
            Hearing Office                                         Regional Office
            Johnstown, Pennsylvania *                                      III
            Fort Smith, Arkansas                                           VI
            Los Angeles (Down Town), California                            IX
            Paducah, Kentucky                                              IV
            Portland, Maine                                                 I

                 Table D-2: Medium Hearing Offices (7 or 8 ALJs )
            Hearing Office                                         Regional Office
            Jericho, New York *                                             II
            Metairie, Louisiana *                                          VI
            Morgantown, West Virginia                                      III
            Kingsport, Tennessee                                           IV

                Table D-3: Large Hearing Offices (more than 8 ALJs )
            Hearing Office                                         Regional Office
            Atlanta (North), Georgia *                                     IV
            Dallas (Down Town), Texas                                      VI
            Minneapolis, Minnesota                                         V


           * Auditors from the Office of the Inspector General visited these hearing offices.
                                                                                 Appendix E

Office of Hearings and Appeals Short-Term
Initiatives
The Social Security Administration’s (SSA) Office of Hearings and Appeals (OHA)
implemented eight Short-Term Initiatives (STI) late in Fiscal Year (FY) 2002 to improve
the hearing process.

The first two STIs centered on hearing office processes:

    •   Contract File Assembly 1

        In the Contract File Assembly initiative, contractors assemble case folders to
        assist hearing offices in preparing backlogged cases for Administrative Law
        Judges (ALJ) to schedule hearings. Contractors assembled over 40,000 files in
        FY 2003.

    •   Ending Rotational Assignments

        OHA Ended Rotational Assignments among certain clerical functions that was
        implemented in its Hearing Process Improvement initiative. This action allows
        support staff to concentrate on their case preparation duties.

These next six STIs were designed to expedite the decision-making process and reduce
processing time.

    •   Early Case Screening and Analysis by Administrative Law Judge

        In Early Case Screening, ALJs examine unassembled cases from the Master
        Docket2 and may issue immediate on-the-record3 favorable decisions. Screening
        helps eliminate standard delays and additional expense associated with holding a
        hearing. Screening also helps identify cases that need further development
        which helps move the cases along at an earlier stage. In FY 2003, ALJs
        screened about 66,000 cases and issued favorable decisions to approximately
        21,600 claimants.
1
 For an Office of the Inspector General analysis, see our Congressional Response Report: Review of
File Assembly Contracts at Office of Hearings and Appeals (A-07-04-24076), March 2004.
2
  OHA’s hearing offices maintain a Master Docket system which contains all requests for hearings and
remanded claims.
3
  On-the-Record (OTR) decisions are when the ALJ reviews a claim prior to a hearing and decides that
there is enough evidence to render a favorable decision. Claims decided OTR eliminate the standard
delays associated with holding a hearing.

                                                  E-1
    •   Short Form Software for Fully Favorable Decisions

        OHA’s hearing offices use standardized software to allow ALJs to create fully
        favorable decisions. In FY 2003, ALJs wrote over 23,600 decisions using the
        Short Form Software for Fully Favorable Decisions, which reduced handoffs and
        further delays.

    •   Bench Decisions

        In Bench Decisions, an ALJ issues a decision as soon as the hearing is over.
        ALJs issued over 1,100 favorable decisions from the bench in FY 2003.

    •   Expanding Video Hearings

        Video Hearings enhances OHA’s ability to expeditiously schedule hearings in
        remote4 locations. In FY 2003, OHA prepared and published final regulatory
        changes, which permit OHA to schedule video hearings without obtaining
        advance consent from the claimant. At the end of FY 2003, OHA had video
        hearing equipment in 35 sites and anticipates adding at least 126 sites in
        FY 2004.

    •   Dragon Naturally Speaking, Speech Recognition Software

        Dragon Naturally Speaking, Speech Recognition Software assists ALJs and
        support staff with drafting decisions. In FY 2003, OHA distributed the software to
        more than 1,000 decision writers and ALJs.

    •   Digitally Recording Hearings

        Digitally Recording Hearings is a new method of recording hearings that replaces
        OHA’s aging audiocassette recorders with notebook computers. The notebooks
        have state-of-the-art software to record hearing proceedings in a digital file that
        can be stored on a hard drive, a local server and in the electronic folder. In
        FY 2004, OHA plans to install the digital recording equipment in five pilot hearing
        offices and begin using digital recording technology in an actual hearing.




4
 Remote sites are locations where hearings are held, other than the main hearing office. For instance,
ALJs in the Charlottesville, Virginia hearing office use the video teleconference to hear cases from the
Lewisburg, West Virginia remote site.




                                                   E-2
                                                                                    Appendix F

Best Practices Used at the Selected 12 Office of
Hearings and Appeals Highest Producing Hearing
Offices
 Hearing      Best Practices for Increasing Dispositions
 Offices
 12 of 12     Daily assignment of work.

  12 of 12    Management review of hearings schedules.

  12 of 12    Share hearing office progress daily/weekly.

  11 of 12    Case Technicians closely monitor and control cases in Post-Hearing Development.

  11 of 12    If Administrative Law Judge (ALJ) agrees, schedule hearing while waiting for
              requested development.
  11 of 12    Hearing office management team members draft decisions.

  10 of 12    Encourage ALJs to schedule at least 40-60 cases per month.

  10 of 12    Do batch scheduling of hearings by representative, by claim type, or by expert.

  10 of 12    Management keeps ALJs focused on moving cases in ALJ Review (Pre-Hearing),
              ALJ Review (Post-Hearing) and Awaiting ALJ signature via Hearing Office
              Tracking System (HOTS) Report and list of pending cases.
  9 of 12     Clearly communicate performance expectations. Identify employees with
              performance problems and use performance assistance plans to address
              concerns.
  9 of 12     Emphasize to all hearing parties that all evidence should be obtained and available
              by the hearing date.
  9 of 12     Obtain development of case file very early in hearing process.

  9 of 12     ALJs focus on ALJ Review (Post-Hearing) on days they have no hearings
              scheduled.
  9 of 12     Assign 4-6 cases to be pulled1 on each flexi place day.

Note 1: Pulling is the term hearing offices use when organizing all of the documentation in a claims folder
prior to holding a hearing before an ALJ.




                                                   F-1
 Hearing Best Practices for Meeting Processing Time Goal
 Offices
 12 of 12 Oldest cases pulled first.

 12 of 12   Finalize and mail cases throughout the month.

 12 of 12   Use specialized staff to process Medicare cases.1

 12 of 12   Give employees continuous feedback.

 12 of 12   Daily management monitoring of workflow.

 11 of 12   Close monitoring and tracking by hearing office management of progress of ALJ
            9000 cases. (An ALJ 9000 case is a label used by hearing offices when a claimant
            files a subsequent application even though their prior application had not yet been
            decided.)
 11 of 12   Foster hearing office culture that ALJs cover hearings for other ALJs taking
            unexpected leave.
 10 of 12   Hearing Office Chief ALJ (HOCALJ) use of Automated Verification Input Database
            (AVID)2 procedure to dispose of paid claims for ALJs in travel or on leave.
 10 of 12   Assign aged cases immediately when moved to a new HOTS status.

 10 of 12   Attorney contacted by phone to verify availability for hearing.

  9 of 12   HOCALJ review of HOTS status reports to identify cases in Post-Hearing
            Development or ALJ Review (Post-Hearing) that have been in this status over 30
            days.
  9 of 12   Direct contact with SSA’s Field Office management on issue of claims file receipt
            time, and/or adherence to established follow-up procedures (similar process used
            when requesting prior files from Program Service Centers).
  9 of 12   Schedule priority cases in gaps between hearings on ALJ calendar.

  9 of 12   Fill postponement slots with dire need, congressional interest, and overpayment
            cases (likely to waive notice period).
  9 of 12   Phone contact with un-represented claimant just before hearing date; prepare
            detailed report of contact.

Note 1: SSA and the Department of Health and Human Services have agreed on a plan for the phased
transfer of the Medicare hearings function. Therefore, this best practice will be unnecessary after SSA
completes processing of its pending Medicare workload scheduled to be completed by September 30,
2005.

Note 2: AVID procedure allows the HOCALJ to sign-off on a claim for an ALJ, if the ALJ is on travel or
leave.




                                                   F-2
                                                                                    Appendix G
Best Practices Used in All of the Selected 12 Office of
Hearings and Appeals Highest Producing Hearing Offices
versus Those Highlighted in OHA’s April 28, 2003 “Best of
the Best” Practices Memorandum
In Table G-1 we illustrate the best practices used in all 12 of the Office of Hearing and
Appeal’s (OHA) highest producing hearing offices and whether the best practice was
highlighted in the memorandum.

   Table G-1: Best Practices Used by the 12 selected OHA’s Highest Producing
     Hearing Offices versus Those Highlighted in April 28, 2003 Memorandum
                                                                                  Found in
                     Best Practices                                            April 28, 2003
                 Used by all 12 Selected                                 Best of the Best Practices
          OHA Highest Producing Hearing Offices                                Memorandum

 Best Practices for Increasing Dispositions
 1. Daily assignment of work.                                                          No
 2. Management review of hearings schedules.                                          Yes
 3. Share hearing office progress daily/weekly.                                       Yes

 Best Practices for Meeting the Processing Time Goal
 1. Oldest cases pulled1 first.                                                        No
 2. Use specialized staff to process Medicare cases.2                                  No
 3. Finalize and mail cases throughout the month.                                     Yes
 4. Give employees continuous feedback.                                               Yes
 5. Daily management monitoring of workflow.                                          Yes

Note 1: Pulling is the term hearing offices use when organizing all of the documentation in a claim’s folder
prior to holding a hearing before an Administrative Law Judge.

Note 2: The Social Security Administration and the Department of Health and Human Services have
agreed on a plan for the phased transfer of the Medicare hearings function. Therefore, this best practice
will be unnecessary after SSA completes processing of its pending Medicare workload scheduled to be
completed by September 30, 2005.
                                                                   Appendix H

Prior Office of the Inspector General Reports
Related to the Office of Hearings and Appeals
Disability Process
   Common
 Identification                   Report Title                         Date
    Number                                                            Issued
A-07-04-24076     Review of File Assembly Contracts at
                  Office of Hearings and Appeals                    March 2004
A-13-04-24045     Chicago Regional Office of Hearings and
                  Appeals Claimant Medical Files                    January 2004
A-12-02-12015     Appeals Council Process Improvement Action
                  Plan                                              January 2004
A-13-03-23091     Operations at the Social Security
                  Administration’s Milwaukee, Wisconsin,           November 2003
                  Office of Hearings and Appeals
A-02-03-13033     Summary of the Office of the Inspector
                  General’s Reviews of the Social Security         September 2003
                  Administration’s Performance Data
A-12-00-10057     Performance Measure Review: Reliability of
                  the Data Used to Measure the Office of             April 2002
                  Hearings and Appeals Decisional Accuracy
A-12-00-10027     Approval of Claimant Representatives and Fees
                  Paid to Attorneys                                 August 2001
A-06-99-51005     Vocational Experts and Medical Experts Fees
                  for Services                                      August 2001
A-12-00-10023     Internal Controls Over the Office of Hearings
                  and Appeals Interpreter Services                  August 2001
A-06-97-21007     Implementation of Best Practices in the Office
                  of Hearings and Appeals Operations                August 1999
                  Appendix I

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM                                                                  33220-24-1126


Date:       August 13, 2004                                                 Refer To: S1J-3


To:         Patrick P. O'Carroll, Jr.
            Acting Inspector General

From:       Larry W. Dye     /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report "Best Practices in Highest
            Producing Hearing Offices" (Audit No. 22003083)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                      I-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “BEST PRACTICES IN HIGHEST PRODUCING HEARING OFFICES" (A-
12-04-14020)


Thank you for the opportunity to review and comment on the draft report. We have
reviewed the conclusions and appreciate that our efforts at compiling and disseminating
best practices have been recognized.

We agree with the recommendations. We will consider developing a process similar to
our previous Practice and Procedures Exchange model in future development and
releases of best practice ideas. Further, recommendation number 2 will be
implemented by August 31, 2004. The Office of Hearings and Appeals is expected to
release a memo to the Regional Chief Administrative Law Judges regarding the
standard operating procedures for increasing dispositions and improving timeliness at
all hearing offices.

[In addition to the information listed above, SSA also provided technical comments
which have been addressed, where appropriate, in this report.]




                                          I-2
                                                                       Appendix J

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director (215) 597-4080

   Michael Maloney, Audit Manager, (703) 578-8844


Acknowledgments

In addition to those named above:

   Nicholas Milanek, Auditor-in-Charge

   Mary Ann Braycich, Program Analyst

   Melissa McDaniel, Auditor

   Ellen Silvela, Auditor

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-12-04-14020.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
